DOE/IG-0537




          AUDIT                    TELECOMMUNICATIONS
                                     INFRASTRUCTURE
         REPORT




                                          DECEMBER 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                      U. S. DEPARTMENT OF ENERGY
                            Washington, DC 20585

                                December 21, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Telecommunications
                                   Infrastructure"


BACKGROUND

The Department of Energy has developed an extensive telecommunications infrastructure to
support its diverse mission responsibilities. Currently, the Department spends more than
$26 million annually to support the telecommunications component of its information
technology infrastructure. Approximately $15 million is used to maintain and operate
Departmentwide mission- and business-related networks, including classified and emergency
communications. The Department also spends over $11 million annually on long distance
telephone, Internet, and video teleconferencing services. The Department's Chief Information
Officer is responsible for developing policy governing the telecommunications infrastructure.


The Office of Inspector General has undertaken a series of reviews designed to evaluate the
performance of the Department's information technology programs, including its
telecommunications infrastructure. Based on this work, we have concluded, as noted in our
Special Report on Management Challenges at the Department of Energy, (DOE/IG-0491,
November 2000), that information technology is one of the most significant management
challenges facing the Department. Based on this concern, the specific objective of this audit
was to determine whether the Department had consolidated and optimized its
telecommunications infrastructure, including its voice, data and video services.

RESULTS OF AUDIT

The audit disclosed that duplicative data transmission infrastructures existed across the
Departmental complex. Further, the Department had not optimized the acquisition of Internet
and video services. Specifically,

    •   Organizations maintained about 190 data transmission circuits that duplicated
        capabilities of other Departmentwide networks;

    •   A number of sites utilized open market sources to acquire Internet service that could
        have been provided from existing capacity; and,

    •   Organizations were maintaining video teleconferencing capabilities that were
        incompatible with corporate networks.
                                               2

These problems occurred because the Department had not developed and implemented a
coordinated approach to the acquisition and use of telecommunications equipment and services.
Further, the Department had not adopted a comprehensive set of performance measures and
incentives which would have encouraged both Federal employees and contractors to obtain
necessary telecommunication capabilities as cost effectively as possible. As a consequence, the
Department annually spends at least $4 million more than necessary to operate and maintain its
telecommunications infrastructure.

MANAGEMENT REACTION

       We made a number of recommendations designed to improve the performance of the
         Department's telecommunications infrastructure. Management concurred with our
         recommendations and agreed to take a number of corrective actions.


Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science, and Environment
    Administrator, National Nuclear Security Administration
    Director, Office of Management, Budget and Evaluation
    Director, Office of Science
    Chief Information Officer
TELECOMMUNICATIONS INFRASTRUCTURE


TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective ..........................................................1

                 Conclusions and Observations.................................................. 1


                 Management of the Telecommunications Infrastructure

                 Details of Finding.......................................................................3

                 Recommendations and Comments ...........................................6


                 Appendices

                 1. Other Matters ........................................................................7

                 2. Scope and Methodology........................................................9

                 3. Prior Reports .......................................................................10

                 4. Management Comments .....................................................11
OVERVIEW


INTRODUCTION AND   The Department of Energy (Department) has multiple, diverse missions
OBJECTIVE          such as nuclear weapons stockpile stewardship, environmental cleanup
                   and advanced scientific research. The Department has developed an
                   extensive telecommunications infrastructure to support these missions.
                   Within the Department, the Chief Information Officer (CIO) is
                   responsible for developing policy governing the management of
                   information technology (IT), including the telecommunications
                   infrastructure. This infrastructure permits organizations to exchange
                   data and includes support for long distance telephone, Internet, and
                   video teleconferencing services.

                   The Department spends more than $26 million annually to support its
                   telecommunications infrastructure. Approximately $15 million is used
                   to maintain and operate Departmentwide mission and business related
                   networks. These networks provide services such as classified and
                   emergency communications and support scientific research and daily
                   business operations. The Department also spends over $11 million
                   annually on long distance telephone, Internet, and video
                   teleconferencing services across the complex.

                   In 1996, the Department began an effort to modernize its
                   telecommunications infrastructure. Central to this effort was the
                   development of a corporate-level network capable of supporting current
                   and future business telecommunication needs. The resulting network,
                   DOE Corporate Network (DOENET), was projected to improve
                   effectiveness, efficiency and overall security of the telecommunications
                   infrastructure. Specifically, the network was to reduce the need for
                   dedicated, standalone data circuits at a number of the Department's sites
                   while improving security over data transmission. In addition, the
                   network was to ultimately provide a cost effective medium for
                   modernizing the Department's video teleconferencing capability.

                   The objective of our audit was to determine whether the Department
                   had consolidated and optimized its telecommunications infrastructure,
                   including its voice, data and video services.


CONCLUSIONS AND    The Department had not effectively consolidated or optimized
OBSERVATIONS       significant segments of its telecommunications infrastructure.
                   Duplicative data transmission infrastructures existed across the
                   complex, and the Department had not optimized the acquisition of
                   Internet and video services. For example, various organizations
                   maintained about 190 data transmission circuits that duplicated
                   capabilities of other Departmentwide networks. A number of sites

Page 1                                                      Introduction and Objective/
                                                         Conclusions and Observations
         utilized open market sources to acquire Internet service that could have
         been provided from existing capacity. Absent a Departmental standard,
         organizations were maintaining video teleconferencing capabilities that
         were incompatible with corporate networks. The Clinger-Cohen Act of
         1996 (Clinger-Cohen) and Office of Management and Budget (OMB)
         guidance require agencies to acquire information technology related
         equipment and services, including telecommunications services, in a
         manner that is the most cost effective to the government. Problems
         with the Department's telecommunications infrastructure occurred
         because it had not developed and implemented a coordinated approach
         and specific, focused performance measures to govern the acquisition
         and use of telecommunications equipment and services. As a
         consequence, the Department annually spends at least $4 million more
         than necessary to operate and maintain its telecommunications
         infrastructure.

         We also noted two additional telecommunications related areas where
         increased efficiencies were possible. These areas were the acquisition
         of long distance services at Lawrence Livermore National Laboratory
         and the consolidation of network services at selected locations. These
         matters are discussed in Appendix 1.

         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.



                                                       Signed
                                              Office of Inspector General




Page 2                                         Conclusions and Observations
MANAGEMENT OF THE TELECOMMUNICATIONS INFRASTRUCTURE


Telecommunications   The Department had not effectively consolidated or optimized
Infrastructure       significant segments of its telecommunications infrastructure.
                     Duplicative data transmission infrastructures existed across the complex
                     and the Department had not optimized Internet and video services
                     acquisition and use. For example, various organizations maintained at
                     least 190 data transmission circuits that duplicated capabilities of other
                     Departmentwide networks. In addition, the Department spends about
                     $1 million each year for Internet services that could be provided from
                     existing capacity. Absent a Departmental standard, organizations were
                     procuring video teleconferencing capabilities that were not compatible
                     with corporate networks.

                                   Duplicate Data Transmission Infrastructure

                     Despite a CIO sponsored initiative to establish a corporate network and
                     eliminate unnecessary circuits, a significant number of duplicative data
                     transmission circuits continue to be used by field and Headquarters
                     locations. Based on our test work and information provided by the
                     Office of the CIO, the Department maintains at least 190 data
                     transmission circuits that duplicate existing capabilities of
                     Departmentwide networks. While the Department originally planned to
                     eliminate these circuits when the corporate network became fully
                     functional in early Fiscal Year (FY) 2000, many organizations
                     maintained them unnecessarily. According to officials responsible for
                     the operation of several Departmentwide networks, if properly
                     configured, existing networks could readily assume the data transfer
                     services provided by these redundant circuits. Terminating theses
                     circuits would eliminate their annual cost without significantly
                     impacting data transmission capabilities.

                                                 Internet Services

                     The Department is not taking full advantage of existing Internet service
                     capabilities. Despite existing capacity, we found that at least 25 sites
                     procure Internet services from open market sources. Based on
                     discussions with Department officials, we learned that the Energy
                     Science Network (ESNet), the Department's nation-wide high
                     performance research network, should be capable of providing Internet
                     connectivity to most Departmental entities. Currently, all Office of
                     Science (Science) locations obtain Internet connectivity through ESNet.
                     In addition, we surveyed a number of other facilities, including
                     operations offices, and contractors, and determined that many utilize



Page 3                                                                   Details of Findings
                     ESNet as their primary Internet service provider. In fact, until May
                     2000, Departmental Headquarters obtained Internet connectivity
                     through ESNet. Now, however, a private vendor provides this service
                     for Headquarters at a cost of about $180,000 annually. The Hanford
                     complex, which consists of multiple contractors, also used ESNet for its
                     primary Internet connectivity until June 1999. Hanford now uses two
                     vendors, in addition to ESNet, at a cost of nearly $100,000 per year.

                                        Video Teleconferencing Services

                     The Department had not developed and implemented a standard for the
                     acquisition and use of video teleconferencing hardware and software.
                     Absent a standard, Departmental organizations were procuring and
                     maintaining capabilities that were incompatible with network based
                     video teleconferencing protocols. While the Department contemplated
                     that video transmission would be optimized to take advantage of
                     Departmentwide networks, it did not specifically require organizations
                     to transition to network based teleconferencing systems. Instead, many
                     sites maintained teleconferencing systems that could not take advantage
                     of the transmission capability provided by corporate networks. For
                     example, certain sites continued to use systems that depend on separate,
                     leased Integrated Services Digital Network (ISDN) lines. As
                     recognized by the Department in its corporate network implementation
                     plans, transition to network based video teleconferencing could
                     eliminate the cost of maintaining a significant number of ISDN lines
                     and improve overall video quality.


Telecommunications   The Clinger-Cohen Act requires the Department to develop and
Infrastructure       implement programs to ensure that information technology related
Management           resources, including telecommunications services, are acquired and
                     utilized in a cost effective and efficient manner. In addition, Clinger-
                     Cohen requires that system performance be closely monitored, and that
                     development and acquisition of information technology be based on an
                     integrated, enterprise-wide architecture. Among other things, Clinger-
                     Cohen implementing guidance, OMB Memorandum 97-15, requires
                     that agencies' telecommunications services acquisitions be based on an
                     integrated planning and evaluation process. In addition, OMB Circular
                     A-130 requires agencies to ensure that improvements to existing
                     information systems and the development of planned information
                     systems do not unnecessarily duplicate resources available within the
                     same agency.



Page 4                                                                   Details of Findings
Telecommunications          Even though suggested by OMB guidance governing
Standards and               telecommunications related services, the Department had not developed
Performance Measures        and implemented specific standards and had permitted its only
Needed                      telecommunications related directive to lapse. Specifically, guidance
                            that required a coordinated approach for building and maintaining its
                            telecommunications infrastructure was not in place. Organizations
                            were not required to coordinate with one another to aggregate demand
                            or to insure compatibility of services. The lack of standards and an up-
                            to-date Departmentwide directive contributed to development of
                            duplicative telecommunications infrastructure and the inefficient
                            procurement of telecommunication services.

                            While certain performance measures were in place, the Department had
                            not developed specific performance measures regarding its
                            telecommunications infrastructure. As required by the Government
                            Performance and Results Act of 1993, we noted the Department had
                            developed performance measures related to telecommunications;
                            however, they were confined to maintaining network availability.
                            Specific performance measures focused on consolidation and
                            optimization of its infrastructure were not in place. Such measures
                            would provide an important management tool for eliminating
                            redundancy and improving overall efficiencies. When combined with
                            milestones and a phased implementation plan, these measures could
                            help ensure success in the telecommunications area.


Opportunities for Savings   Opportunities for significant savings in the Department's
and Other Benefits          telecommunications program exist. Based on our testing and on data
                            provided by various sources, we determined that the Department spends
                            at least $4 million annually more than necessary on voice, data and
                            video services. For example, the transfer of data now carried by
                            redundant data circuits to an existing Departmentwide network could
                            save the Department about $3 million per year. Savings of about
                            $1 million per year are also available by utilizing existing Internet
                            service capacity. In addition, development and implementation of a
                            comprehensive video teleconferencing strategy could result in
                            additional savings.

                            In addition to reducing overall cost, consolidation of Internet service
                            could have additional benefits. For example, the Department could
                            reduce security risk and compatibility/management problems associated
                            with using multiple, private providers. According to corporate network
                            feasibility studies, security risks could be reduced through consolidating
                            and limiting the Department's separate connections to the Internet.

Page 5                                                                          Details of Findings
                      Such action would serve to reduce potential entry or infiltration points
                      by hackers or other malicious users. In addition, limiting the number of
                      providers would result in fewer connections to manage and support,
                      potentially reduce procurement costs, and should help eliminate
                      compatibility issues.


RECOMMENDATIONS       To optimize the Department's telecommunications infrastructure, we
                      recommend that the CIO in conjunction with the Lead Program
                      Secretarial Officers:

                         1. Develop an enterprise-wide telecommunications architecture
                            that includes all voice, data and video services. This should
                            include the development of standards governing the acquisition
                            and use of telecommunications related equipment and services.

                         2. Develop a strategy to eliminate redundant data transmission
                            circuits and migrate data to an existing Departmentwide
                            network.

                         3. Where appropriate, use existing capacity to provide Internet
                            connectivity to Department organizations.

                         4. Where appropriate, transition video services to a
                            Departmentwide network.

                         5. Develop specific, focused performance measures governing the
                            development and implementation of an enterprise-wide
                            telecommunications architecture.

                         6. Develop and implement a Department-level directive to
                            establish the enterprise-wide telecommunications architecture.


MANAGEMENT REACTION   Management concurred with the findings and recommendations
                      identified in our report. Management's comments and proposed
                      corrective actions are included in their entirety in Appendix 4.


AUDITOR COMMENTS      Management's comments are responsive to our recommendations.
                      When fully implemented, these actions should reduce overall costs and
                      improve the effectiveness and efficiency of telecommunications within
                      the Department.



Page 6                                                 Recommendations and Comments
APPENDIX 1

OTHER MATTERS   We also noted two additional telecommunications related areas where
                increased efficiencies are possible. These include the acquisition of
                long distance services at Lawrence Livermore National Laboratory
                (Livermore) and the consolidation of network services at selected
                locations.

                                   Long Distance Telephone Services

                While the Department has largely been successful in managing the
                transition of its long distance telephone services to the Federal
                Telecommunications Services 2001 (FTS) contract, additional cost
                efficiencies are possible. Despite its expressed intent to consolidate all
                long distance telephone services under the FTS contract, the
                Department permitted Livermore to contract with an alternate long
                distance carrier. While this action initially appeared to be beneficial to
                Livermore, we determined that the overall cost to the Department
                would be increased by about $70,000 per year. Specifically,
                Livermore's analysis did not consider the increased costs to other
                Departmental organizations associated with its use of an alternate long
                distance carrier. Under the current contracting arrangement, all
                Government organizations utilizing the FTS contract are forced to pay a
                higher than normal rate when placing calls to Livermore.

                                   Consolidation of Network Services

                Consolidation of network services at select locations may provide
                additional efficiencies while reducing annual costs. In addition to the
                190 separate circuits discussed in the body of our report, we also noted
                that at least eight locations, listed below, are candidates for network
                circuit consolidation. These sites maintain connections to multiple
                Departmentwide networks such as DOENet and ESNet. Based on
                consultation with network management and other officials, we
                determined that if properly configured, required data could be
                transmitted over a single network. Preliminary data compiled by
                Headquarters officials indicated that the elimination of multiple
                network connections had the potential to save about $80,000 per year.
                The Department should consider consolidating circuits when evaluating
                network expansion, acquisition, or configuration plans at the following
                sites:

                   •   Chicago Operations Office
                   •   Idaho Operations Office
                   •   National Renewable Energy Laboratory
                   •   Oak Ridge Operations Office

Page 7                                                                    Other Matters
         •   Oakland Operations Office
         •   Amarillo Area Office
         •   Richland Operations Office
         •   Savannah River Operations Office




Page 8                                          Other Matters
APPENDIX 2

SCOPE         The audit was performed between April and October 2001 at
              Departmental Headquarters in Washington, DC; the Lawrence
              Livermore National Laboratory in Livermore, California; the Lawrence
              Berkley National Laboratory in Berkley, California; the Nevada
              Operations Office in Las Vegas, Nevada; the Oakland Operations
              Office in Oakland, California; and the Oak Ridge Reservation in Oak
              Ridge, Tennessee. In all, we obtained statistics on 47 separate
              Departmental entities through the use of a survey instrument with
              regard to Internet service and/or video teleconferencing capabilities.


METHODOLOGY   To accomplish our objectives, we:

                 •   Reviewed applicable laws and regulations pertaining to the use
                     and acquisition of information technology. We also reviewed
                     reports by the Office of Inspector General, the General
                     Accounting Office, and contractor internal audit organizations.

                 •   Reviewed the Government Performance and Results Act of 1993
                     and determined whether performance plans and measures had
                     been established.

                 •   Reviewed numerous documents related to the Department's
                     Corporate and Energy Science Network planning and
                     architecture.

                 •   Held discussions with personnel from the Offices of the Chief
                     Information Officer and the Office of Science. We also held
                     discussions with various officials and staff at the operations
                     offices and laboratories we visited.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objectives. Accordingly, we
              assessed internal controls regarding the development and
              implementation of wide area networks. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely on computer-processed data to accomplish our audit objectives.

              An exit conference was held with Headquarters officials on October 23,
              2001.


Page 9                                                     Scope and Methodology
APPENDIX 3



                                          PRIOR REPORTS


     •    The Department of Energy's Implementation of the Clinger-Cohen Act of 1996, (DOE/IG-
          0507, June 2001). While the Department had taken action to address certain IT related
          management problems, it has not been completely successful in implementing the
          requirements of the Clinger-Cohen Act of 1996. The report noted, among other things, that
          the Department had not closely monitored policy implementation efforts. It attributed the
          problems identified, in part, to the Department's decentralized approach to information
          technology management and oversight and the organizational placement of the CIO. The
          report noted that the CIO lacked the authority necessary to ensure that policy implementation
          was consistent across the complex.

     •    Special Report on Management Challenges at the Department of Energy, (DOE/IG-0491,
          November 2000). Information technology management remains one of the most serious
          challenges facing the Department. The Office of Management and Budget has also identified
          the use of capital planning and investment controls to better manage IT as a Government-
          wide priority management objective for FY 2001.

     •    Hanford Site Contractors' Use of Site Services, (WR-B-99-03, March 1999). Site contractors
          independently procured telecommunications, copying, and photography services that were
          already available, even though the Hanford site had enough capacity to respond to
          contractors' needs.

     •    Review of the U.S. Department of Energy's Information Management Systems, (DOE/IG-
          0423, August 1998). The CIO lacked the authority and resources necessary to ensure
          development of information architecture at the program level, which form the building blocks
          of a Departmental architecture. The report added that, as a result, the Department had not
          developed and implemented an IT architecture, although its Strategic Plan called for the
          implementation of Departmentwide information architecture with support standards by
          January 1998.

     •    Major Management Challenges and Program Risks: Department of Energy, (GAO-01-246,
          January 2001). This report, part of GAO's high-risk series, discusses the major management
          challenges and program risks facing the Department of Energy. GAO found, among other
          things, security weaknesses in public Internet access to sensitive information on the
          Department's networks and at the Department's science laboratories.




Page 10                                                                                     Prior Reports
APPENDIX 4


             MANAGEMENT COMMENTS




Page 11                            Management Comments
Page 12   Management Comments
Page 13   Management Comments
                                                                             IG Report No. : DOE/IG-0537

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
